NO. 20-

IN THE
SUPREME COURT OF THE UNITED STATES

Kelli Ward,
Petitioner,
v.
Constance Jackson, Felicia Rotellini; Fred Yamashita; James Mclaughlin;
Jonathan Nez; Luis Alberto Heredia; Ned Norris; Regina Romero; Sandra D.
Kennedy; Stephen Roe Lewis; and Steve Gallardo,
Respondents',
Katie Hobbs, in her official capacity as the Arizona Secretary of State;
Adrian Fontes, in his official capacity as the Maricopa County Recorder; and
Clint Hickman, Jack Sellers, Steve Chucri, Bill Gates, and Steve Gallardo, in
THEIR OFFICIAL CAPACITIES AS THE MARICOPA COUNTY BOARD OF SUPERVISORS,
Intervenors.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE ARIZONA SUPREME COURT
MOTION TO EXPEDITE

Dennis I. Wilenchik
John D. Wilenchik
Counsel of Record
Wilenchik & Bartness
2810 N. Third St.
Phoenix, AZ 85004
(602) 606-2810
jackw@wb-law.com
Counsel for Petitioner
December 11, 2020

Petitioner hereby files this Motion for Expedited Consideration of the
Petition for Certiorari (the “Petition”) and incorporates the Petition as if set forth
herein.
This case arises out of a contest over presidential electors in Arizona, and
asks the Court to declare unconstitutional the dates/deadlines of December 8th, 2020
and December 14th, 2020 as applied to state-court litigation over presidential
electors. The urgency of the matter is self-apparent. Petitioner therefore requests
expedited consideration.

Respectfully submitted,

/s/ John D. Wilenchik
Dennis I. Wilenchik
John D. Wilenchik
Counsel of Record
Wilenchik & Bartness
2810 N. Third St.
Phoenix, AZ 85004
(602) 606-2810
jackw@wb-law.com
Counsel for Petitioner

